No.
IN THE
SUPREME COURT OF THE UNITED STATES

Jessica Wrobleski - Petitioner
VS.
Administration for Children Services, et al.
Respondent(s).
PROOF OF SERVICE
I, Jessica Wrobleski, do swear or declare that on this date,

\LoJUj

SO'**'

2021, as required by Supreme Court Rule 29 I have
serviced the following documents:
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS with
PETITION FOR A WRIT OF CERTIORARI, APPENDIX, MOTION FOR
LEAVE TO FILE A SUPPLEMENTAL APPENDIX UNDER SEAL,
SUPPLEMENTAL APPENDIX UNDER SEAL, COPY OF U.S. SUPREME
COURT ORDER(S),
And sent to each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days, to the following addresses and parties:

RECEIVED
AUG - 3 2021

The names and addresses of those served are as follows:
United States Supreme Court
Governor Andrew M. Cuomo
Clerk Office
Office of the Governor
1 First Street, NE
New York State Capitol Building
Albany, N.Y. 12224
Washington D.C. 20543
ACS Law Department
150 William Street
New York, New York 10038
212-639-9675

Legal Aid Society
199 Water St,
New York, NY 10038
212-577-3300

New York State
Dwight Kennedy
Office of the Attorney General Carrieri & Carrieri Firm
The Capitol, Albany, NY 12224
200 Old Country Rd Ste 620
1800-771-7755
Mineola, NY 11501
516-248-1188
NYC Corporation Counsel
100 Church Street
New York, New York 10007
212-356-1000
I declare under penalty of perjury that the foregoing is true and correct.
Executed on
~7/3o^c3cQ/
, 2021
'/Ysjr'ai

T

Jessica Wrobleski
115 Henry Street #3219
Binghamton, N.Y. 13902
(607) 621-0884
WrobleskiO 138@gmail.com

